WAIVE

Supreme Court, U.S.
FILED

AUG 1 9 2021
OFFICE OF THE CLERK

SUPREME COURT OF THE UNITED STATES
No.

20-8382

Joseph Essilfie

Jordan Keating, et al.
(Petitioner)

V.

(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.
Please check the appropriate box:
®

I am filing this waiver on behalf of all respondents.

0

I only represent some respondents. I am filing this waiver on behalf of the following respondent(s):

Please check the appropriate,box:
I am a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)

Cl

I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn: Clerk's Office, 1 First Street, NE, Washington, D.C. 20543).
Signature:

atbit,
8/19/21

Date:

(Type or print) Name S. Karen Bamberger
0 Ms.
Firm

Betts Patterson & Mines

Address

701 Pike St., #1400

City & State - Seattle, WA
Phone

206-282-9988

0 Mrs.

Cl Miss

p. 98101
Email kbamberger@bpmlaw.com

A copy of this form must be sent to petitioner's counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover lai-tpr is required,

CC:

Joseph Essilfie, Pro Se
551 Elliot Avenue West
Seattle, WA 98119

AUG 31 20 1
OFF1C %MT usK

